No. 21-194

 

 

In THE
Supreme Court of the United States

CALIFORNIA TRUCKING ASSOCIATION, INC., ET AL.,
Petitioners,
v

ROBERT BONTA, ATTORNEY GENERAL OF
CALIFORNIA, ET AL.,
Respondents.

On Petition for a Writ Of Certiorari to
the United States Court Of Appeals for the
Ninth Circuit

BRIEF FOR AMICI CURIAE
SHIPPER TRADE ASSOCIATIONS
SUPPORTING PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1th), I certify that the document contains
4,529 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 10, 2021.

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

  
